                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                         CLOSEOUT
                                         \,
                                                  MEMORANDUM

Case Number: 110090043                                                               Page 1 of 1




        OIG opened this investigation based on information provided that a Professor at a
                                                                                    3
        Universiti, who is also a Principal Investigator (PI)2 on an NSF award , had made a
        statement during a meeting at the University stating his federal grant funds were being
        used to subsidize the University's general lab courses. The Professbr was interviewed and
        acknowledged making the statement but claimed it was false, i.e., that he had made it as a
        rhetorical exaggeration during a discussion about student fees to drive home the point that
        the University needed to develop independent resources to fund general lab courses. He
        stated verbC)lIy and in writing that he has not misused/misappropriated NSF grant funds or
        any federal funds. The University's Internal Audit Director stated that a prior and current
        audit focused on research centers, one of which the Professor oversees, and no issues
        were found indicating internal control problems. She stated that an audit is being planned
        to review allowable costs and explained that this will provide assurance that federal funds
        are being utilized in accordance. with federal grant conditions and requirements. Since no
        evidence was found to support that funds have been misappropriated, no further
        investigative activity is warranted.

         This investigation is closed.




NSF OIG Form 2 (11102)
